No. 20-1293

 

 

IN THE

Supreme Court of the United States

ABBVIE INC., et al.,
Petitioners,

v.

FEDERAL TRADE COMMISSION,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF OF AMICI CURIAE LAW PROFESSORS
IN SUPPORT OF PETITION FOR A WRIT
OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,043 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 19, 2021.

u

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
